        Small Business Regulation D
            Exemption Process


                      EXECUTIVE SUMMARY

The Office of Inspector General (OIG) reviewed the Division of Corporation
Finance’s (Division) process for assessing whether companies appropriately use
Regulation D exemptions from the Securities Act of 1933 (1933 Act) registration
requirements. We found that the Division’s Office of Small Business Policy (Small
Business) provides guidance to industry on Regulation D questions and conducts
annual conferences to discuss matters affecting small businesses. Also, Small
Business has proposed revising and requiring electronic filing of the Form D notice
to make it more useful.
The Division can further assess whether companies appropriately use Regulation D
exemptions by comparing information in Form D notices to companies’ disclosures of
unregistered sales of equity securities (required in filings to register offerings of
other securities). Also, the Form D needs to include additional information to show
compliance with Regulation D. In addition, the Division should collect and analyze
information on Regulation D offerings and issues identified by the Office of
Compliance Inspections and Examinations (OCIE).

                        Scope and Objectives
Our audit objective was to evaluate the Division’s process for assessing whether
companies appropriately use the Regulation D exemptions. We interviewed Division
staff and reviewed relevant laws, regulations and other documentation.
We conducted the fieldwork between June 2003 and January 2004, in accordance
with generally accepted government auditing standards.


                                 Background
The Commission recorded that the nation’s small businesses reported unregistered
offerings of $1.2 trillion in securities from January 2000 to March 2001 (statistics for
other periods have not been collected).




Small Business Regulation D Exemption Process (Audit 371)                  March 29, 2004
                                                                                       2

Regulation D gives companies specific requirements to meet in order to exempt a
sale of securities from registration under the 1933 Act. Companies that do not
comply with Regulation D may still make unregistered sales of securities.
Compliance with Regulation D, however, provides assurance that the company has
met the 1933 Act requirements.
Regulation D includes three offering exemptions. Rule 504 exempts offerings up to
$1 million, Rule 505 up to $5 million and Rule 506 an unlimited amount.
Investment companies, “blank check” companies (development stage companies
without specific business plans) and companies that must file periodic reports under
the Exchange Act of 1934 may not use Rule 504. Also, investment companies may
not use Rule 505. On the other hand, any business may use Rule 506 to raise
capital.
Regulation D requires companies to file a Form D, notice of the sale of unregistered
securities, within 15 days after the first sale. Form D is a short form that identifies
the issuer and any promoters, beneficial owners, officers and directors, and partners.
Also, it provides information about the exemption claimed (Rule 504, 505, or 506)
and information on the type and amount of the securities offered and the use of
proceeds.
Also, Item 701 of Regulation S-K requires public companies to disclose in
registration statements and periodic reports unregistered sales of equity securities
within the past three years. This information includes the securities sold,
underwriters and other purchasers, offering price, exemption claimed, terms of
converting securities, and use of proceeds.
The Division does not systematically review Form Ds that are filed. However, the
Office of Compliance Inspections and Examinations (OCIE) reviews Form Ds in
connection with its examination of private placement activities of broker-dealers and
investment advisers involving Regulation D issues.
Approximately 17,000 Form Ds were filed with the Commission in Fiscal Year (FY)
2003. The Commission’s Public Reference Room (Public Reference) in the Office of
Filings and Information Services (OFIS) maintains Form Ds in paper for 30 days,
and then discards them. A Commission contractor makes these forms available as
document images.
The Office of Small Business Policy, consisting of five permanent and two rotating
staff, is responsible for administering the Regulation D program. Small Business
provides guidance to the industry by answering Regulation D questions submitted
by telephone, e-mail, or regular mail. Also, it presents the annual SEC Government-
Business Forum on Small Business Capital Formation attended by industry and
state small business representatives.


                              Audit Results
The Division of Corporation Finance can improve its controls that ensure companies’
compliance with Regulation D. For example, the Division could use the Form D
notice in reviewing the companies’ disclosures of unregistered sales of securities
included in filings of public companies. Also, the Form D could be improved to


Small Business Regulation D Exemption Process (Audit 371)             March 29, 2004
                                                                                         3

include certain information needed to show compliance with Regulation D and the
Division could coordinate with OCIE on Regulation D issues. In addition, the
Division could track data on Regulation D offerings or Regulation D compliance
problems found by OCIE.

Form D and Registration Statements
We sampled 18 of approximately 320 Form S-1 1933 Act securities registration
statements (registrations) filed between November 2002 and October 2003 on a
judgment basis. We compared the disclosure of unregistered sales of securities in
the registrations to the Form Ds filed by those companies during the same period.
In 16 of the 18 registrations, we found at least one Regulation D transaction that
appeared to lack a corresponding Form D. Also, for 12 of these 18 companies, we
found at least one Form D transaction that we could not find disclosed in the
registration.
Companies must file Form D for securities offerings for which they claim a
Regulation D exemption. Also, Item 701 of Regulation S-K requires registration
statement disclosure of unregistered sales of equity securities.
The Division’s filing review staff relies on the Regulation D disclosures in the
registration statement, and does not check them against the Form D.
       Recommendation A
       The Division should consider, in light of its priorities and resources, whether
       to require examiners to review the corresponding Form D information in
       connection with their review of subsequent registration statements.

Consult With OCIE
OCIE has identified deficiencies in Regulation D compliance during its examinations
of registered entities’ private placement activities. These deficiencies included
insufficiently qualified accredited investors and potentially public securities
offerings. The Division does not periodically consult with OCIE about Regulation D
issues noted during exams. The Division could use this information to help guide its
Regulation D policies.
       Recommendation B
       The Division should consult with OCIE to develop a process to obtain
       information regarding Regulation D compliance issues noted during OCIE
       examinations.

Track Form D Data
Small Business maintains an automated log of Regulation D telephone inquiries.
Also, it created a database of information from approximately 9,400 paper Form Ds
filed during 2000 and 2001.
The Division does not maintain current data regarding Regulation D offerings. This
data would allow the Division to identify trends in the use of Regulation D (e.g.,


Small Business Regulation D Exemption Process (Audit 371)              March 29, 2004
                                                                                         4

types of exemptions claimed, types of securities offered, offering amounts, use of
proceeds).
       Recommendation C
       As its resources allow, the Division should track data on Regulation D
       offerings.

Revise Form D
The current Form D does not include certain information needed to determine
compliance with Regulation D. For example, it does not show the date of the first
sale of securities, although companies must file Form D within 15 days after the
first sale.
Small Business proposed revising and requiring electronic filing of the Form D. It
plans to coordinate with the states’ securities authorities to identify information to
add, change, or delete from the form.
The Commission must approve changes regarding Form D, including electronic
filing. Also, the Office of Information Technology (OIT) has overall responsibility for
system changes related to electronic filing. In addition, the Office of General
Counsel might need to participate in addressing any related legal issues.
       Recommendation D
       The Division should recommend revising Form D to include the information
       described above, as well as any other information it deems necessary to
       include.
       Recommendation E
       The Division, in coordination with OIT and OGC, should make an
       appropriate recommendation to the Commission about electronic filing of
       Form Ds.




Small Business Regulation D Exemption Process (Audit 371)              March 29, 2004
